TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Despite the Success Achieved, the Son of
                     Boss Settlement Had Little Impact on
                   Investor Filing and Payment Compliance



                                       December 30, 2008

                              Reference Number: 2009-30-018




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              December 30, 2008


 MEMORANDUM FOR COMMISSIONER, LARGE AND MID-SIZE BUSINESS DIVISION
                COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                   (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Despite the Success Achieved, the Son of Boss
                              Settlement Had Little Impact on Investor Filing and Payment
                              Compliance (Audit # 200730IE041)

 This report presents the results of our review of the impact that the Son of Boss (Bond and
 Option Sales Strategies)1 settlement initiative had on investor filing and payment compliance.
 The overall objective of this review was to evaluate whether participants and non-participants in
 the Son of Boss settlement are meeting their Federal tax obligations. The review was conducted
 as part of our planned Fiscal Year 2008 audit coverage.

 Impact on the Taxpayer
 The ability of the Internal Revenue Service (IRS) to successfully administer the nation’s tax
 system is heavily dependent upon the public’s perception about its fairness. Many involved in
 tax administration, including Congress, the IRS, the Treasury Inspector General for Tax
 Administration, and the Government Accountability Office, believe that the Son of Boss and
 other abusive tax shelters can give the appearance that the tax system is unfair, which in turn can
 undermine voluntary compliance. The perception of fairness might be further aggravated when a
 tax shelter settlement, such as the Son of Boss settlement, allows taxpayers to deduct a portion of
 the costs associated with investing in the abusive tax shelter even when they fail to meet their tax
 return filing and payment obligations.

 1
  Internal Revenue Service Notice 2000-44, Tax Avoidance Using Artificially High Basis, 2000-36 IRB 255,
 describes “Son of Boss” transactions as arrangements that are “designed to produce noneconomic tax losses on the
 disposition of partnership interests.”
                      Despite the Success Achieved, the Son of Boss Settlement
                     Had Little Impact on Investor Filing and Payment Compliance




Synopsis
The IRS has a long history of using incentives as a tax administration tool to resolve controversy
and foster compliance. The Son of Boss settlement was one such incentive that provided
participating taxpayers and the IRS with the opportunity to save time and money that might
otherwise have been spent on a protracted dispute over the Son of Boss abusive tax shelter.
Investors participating in the settlement were allowed to deduct a portion of their transaction
costs, typically promoter and professional fees, and, in some instances, avoid tens of thousands
of dollars in penalties that could have been imposed.
The Offer in Compromise (OIC)2 is another incentive that is, perhaps, more widely known to the
public due to IRS outreach efforts and the considerable amount of advertising appearing in the
media about taxpayers settling their tax liabilities for much less than the amounts actually owed.
Although an OIC does allow an eligible taxpayer to settle his or her tax liability for less than the
full amount owed, it also benefits the IRS. An OIC provides the IRS with an opportunity to
collect revenue that might otherwise not be collectible and to receive a key compliance
commitment from the taxpayer.
It is important to recognize that there are differences, as well as similarities, between the Son of
Boss settlement and the OIC. One important difference is that the Son of Boss settlement was
focused on promoting voluntary reporting compliance while the focus of an OIC is on promoting
voluntary filing and payment compliance. However, both incentives ultimately resolve issues for
less than the amounts that could have been owed and are promoted as being in the best interest of
the Federal Government and the taxpaying public. Because of these similarities, we analyzed
features in each incentive and have observations that the IRS might find useful in designing
future tax shelter settlements. Specifically, our analysis suggests that incorporating greater
transparency as well as filing and payment compliance commitments in tax shelter settlements
might help alleviate any potential fairness concerns associated with abusive tax shelters.
In establishing the statutory procedures for an OIC, Congress recognized the potential fairness
issues related to settling for less than the full amount owed by granting the IRS the authority
under the Internal Revenue Code3 to publicly disclose certain information about each OIC,
including the name of the taxpayer, the amount of the debt compromised, and the amount
accepted by the Federal Government as full payment of the liability. Although Congress did not
extend this authority to tax shelter settlements, such transparency is important in terms of

2
  An OIC is an agreement between the taxpayer and the Federal Government that settles a tax liability for payment
of less than the full amount owed. According to the IRS, it will generally accept an OIC when it is unlikely that the
tax liability can be collected in full and the amount reasonably reflects collection potential. The goal is to achieve
collection of what is potentially collectible at the earliest possible time and at the least cost to the Federal
Government.
3
  Internal Revenue Code Section 6103(k)(1) (2008).
                                                                                                                     2
                     Despite the Success Achieved, the Son of Boss Settlement
                    Had Little Impact on Investor Filing and Payment Compliance




fairness because it helps assure taxpayers that the tax law and related administrative procedures
are applied consistently and are not favoring one taxpayer over another.
With respect to filing and payment compliance commitments, taxpayers who have their liabilities
compromised face losing the benefits they receive under an OIC because the IRS can reinstate
the debt and resume collection actions if they fail to meet all their filing and payment obligations
in the succeeding 5 years. In contrast, taxpayers who participated in the Son of Boss settlement
were not required to make a similar commitment as a condition for keeping the settlement’s
benefits. We believe that there are at least two reasons why linking future filing and payment
compliance with the potential loss of benefits is important from a tax system fairness
perspective. First, it ensures that there are consequences that extend beyond the delinquency
penalties an otherwise compliant taxpayer in the general population might occasionally incur.
Second, our work and that of the IRS suggest that the prospect of losing benefits contributes to a
high level of voluntary filing and payment compliance.
Our evaluation of voluntary filing and payment compliance in the 3 years following the Son of
Boss settlement showed that 300 (27 percent) of the 1,103 taxpayers who participated in the
settlement did not meet their filing and payment obligations. Comparatively, we reported in
20044 that 96 percent of the 84 taxpayers evaluated in a statistical sample of 28,018 OICs were in
compliance with their filing and payment obligations at the time of our review.
The seemingly high level of voluntary filing and payment compliance linked to the compliance
commitments in the OIC is significant because enhancing voluntary compliance is key to
reducing the annual tax gap.5 The relationship between tax system fairness and tax gap reduction
can, perhaps, be best summarized by the following comments from Senator Max Baucus that
appeared in a July 16, 2008, Senate Finance Committee news release: “The sooner we can close
the tax gap, the better. It’s a matter of fairness to hard-working, law-abiding taxpayers who are
forced to pick up a bigger burden because others don’t pay what they owe.”

Response
Although this report discusses compliance issues related to participants in the Son of Boss
settlement, we are not recommending any specific corrective actions. Because our review
focused only on the Son of Boss settlement, we have no basis for knowing whether the filing and
payment compliance issues noted were unique to the participants in the Son of Boss settlement
or are prevalent among participants in other tax shelter settlements. Therefore, we have no basis
for recommending specific changes to IRS policies and procedures. However, IRS officials did

4
  Monitoring of Offers in Compromise Is Generally Effective, but Some Improvement Is Needed (Reference
Number 2004-30-043, dated January 2004).
5
  The tax gap is the estimated difference between the amount of tax that taxpayers should pay and the amount that is
paid voluntarily and on time.
                                                                                                                   3
                  Despite the Success Achieved, the Son of Boss Settlement
                 Had Little Impact on Investor Filing and Payment Compliance




have an opportunity to review and provide comments on a draft of this report. We incorporated
the comments where appropriate.
Copies of this report are also being sent to IRS managers affected by the report issues. Please
contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant Inspector
General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.




                                                                                                  4
                        Despite the Success Achieved, the Son of Boss Settlement
                       Had Little Impact on Investor Filing and Payment Compliance




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Ability to Successfully Administer the Nation’s Tax System
          Depends in Large Part on the Public’s Perception About Its Fairness .........Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Investor Tax Return Information .........................................Page 14
        Despite the Success Achieved, the Son of Boss Settlement
       Had Little Impact on Investor Filing and Payment Compliance




                     Abbreviations

Boss           Bond and Option Sales Strategies
IRS            Internal Revenue Service
OIC            Offer in Compromise
                     Despite the Success Achieved, the Son of Boss Settlement
                    Had Little Impact on Investor Filing and Payment Compliance




                                            Background

The taxpaying public has long sought ways to minimize tax liabilities by sheltering income and
gains from taxes through use of investments and other financial-related transactions. Some tax
shelters, however, have received widespread publicity because they purportedly abuse the tax
law, represent a significant loss of tax revenue, and undermine the public’s confidence in the tax
system. The Son of Boss (Bond and Option Sales Strategies)1 is one such abusive tax shelter.
The Internal Revenue Service (IRS) determined that other than generating tax benefits, it lacked
a business purpose and estimated that it understated tax liabilities by more than $6 billion.
The IRS characterized the Son of Boss abusive tax shelter as a highly sophisticated, technically
complex, no-risk scheme designed to generate tax losses without corresponding economic risks
that was promoted by some prominent firms in the financial services industry to investors
seeking to shelter large gains from the sale of a business or capital asset. The scheme used
flowthrough entities, such as partnerships, and various financial products2 to add steps and
complexity to transactions that had little or no relationship to the investor’s business or the asset
sale creating the sheltered gain.
In addition to adding to the complexity of the transactions, the losses generated from the Son of
Boss tax shelter were often reported among other “legitimate” items in several parts of the
income tax return. For example, some losses were reported as reductions to gross sales, cost of
goods sold, or capital gains. Taken together, the characteristics of the transactions, especially the
use of flowthrough entities, made it very difficult for the IRS to detect the Son of Boss abusive
tax shelter through its traditional process of screening returns individually for questionable items.
Announced publicly on May 5, 2004,3 the Son of Boss settlement allowed investors the
opportunity to disclose their involvement in the Son of Boss abusive tax shelter in exchange for
avoiding penalties and for offsetting some of the losses the IRS would disallow by the amount of
out-of-pocket4 expenses they had paid to the promoters. As a result, the IRS was able to quickly
identify hundreds of investors and recoup billions of dollars in tax revenue.
This review was performed at the Treasury Inspector General for Tax Administration offices in
Washington, D.C., and Los Angeles, California, during the period November 2007 through


1
  Internal Revenue Service Notice 2000-44, Tax Avoidance Using Artificially High Basis, 2000-36 IRB 255,
describes “Son of Boss” transactions as arrangements that are “designed to produce noneconomic tax losses on the
disposition of partnership interests.”
2
  The IRS defines financial products as instruments used in the global market place. They include, among others,
stocks, bonds, foreign currencies, mortgages, commodities, and derivatives.
3
  IRS Announcement 2004-46.
4
  Out-of-pocket expenses are transaction fees the investors paid to promoters.
                                                                                                          Page 1
                  Despite the Success Achieved, the Son of Boss Settlement
                 Had Little Impact on Investor Filing and Payment Compliance



April 2008. We conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
finding and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                         Page 2
                      Despite the Success Achieved, the Son of Boss Settlement
                     Had Little Impact on Investor Filing and Payment Compliance




                                       Results of Review

The IRS has a long history of using incentives as a tax administration tool to resolve controversy
and foster compliance. The Son of Boss settlement was one such incentive that provided
investors and the IRS with an opportunity to save time and money that might otherwise have
been spent on a protracted dispute. Investors participating in the settlement were allowed to
deduct a portion of the fees paid to promoters and, in some instances, avoided tens of thousands
of dollars in penalties that could have been imposed in exchange for conceding most benefits.
The Offer in Compromise (OIC)5 is another incentive that is, perhaps, more widely known to the
public due to IRS outreach efforts and the considerable amount of advertising appearing in the
media about taxpayers settling their tax liabilities for much less than the amounts actually owed.
Although an OIC does allow an eligible taxpayer to settle his or her tax liability for less than the
full amount owed, it also benefits the IRS. Among other things, an OIC provides the IRS with
an opportunity to collect revenue that might otherwise not be collectible and to receive a key
compliance commitment from the taxpayer.

The Ability to Successfully Administer the Nation’s Tax System
Depends in Large Part on the Public’s Perception About Its Fairness
Many involved in tax administration, including Congress, the IRS, the Treasury Inspector
General for Tax Administration, and the Government Accountability Office, believe that abusive
tax shelters can give the appearance that the tax system is unfair, which in turn can undermine
voluntary compliance. In addition to threatening voluntary compliance, abusive tax shelters pose
a significant threat to tax revenues. The IRS estimated that the potential revenue loss to the
Department of the Treasury from abusive tax shelters was in the tens of billions of dollars over a
decade.
Given the seriousness of these abuses, it is not surprising that the IRS, the Department of Justice,
and State tax authorities have focused considerable efforts and resources on identifying,
monitoring, and prosecuting promoters and participants in abusive tax shelters. Besides these




5
  An OIC is an agreement between the taxpayer and the Federal Government that settles a tax liability for payment
of less than the full amount owed. According to the IRS, it will generally accept an OIC when it is unlikely that the
tax liability can be collected in full and the amount reasonably reflects collection potential. The goal is to achieve
collection of what is potentially collectible at the earliest possible time and at the least cost to the Federal
Government.
                                                                                                              Page 3
                      Despite the Success Achieved, the Son of Boss Settlement
                     Had Little Impact on Investor Filing and Payment Compliance



efforts, Congress has developed and enacted a significant amount of legislation to deal with the
problem, as noted in the following press statement attributed to Senator Charles Grassley:6
         . . . we were successful last fall in enacting the most comprehensive anti-tax shelter
         provisions since 1986. These provisions are meant to give the IRS more information to
         find abuses and crack down on them, ideally before they catch on with thousands of
         clients like Son of Boss did. I look forward to continuing to work with the IRS on
         anti-shelter.
By most accounts, the Son of Boss settlement was very successful in addressing the issues
associated with wealthy individuals using a tax shelter to understate taxes. Former IRS
Commissioner Mark W. Everson noted that the settlement secured significant revenue, as
highlighted in the following press statement:7 “The $3.2 billion is cash that the IRS has in hand,’
Everson said. Neither he nor other IRS officials would give names or discuss details of
individual cases, but Everson did say that ‘some people have had to sell their villas or yachts.”
Despite the success achieved, the Son of Boss settlement had little impact on investor filing and
payment compliance. Our evaluation of investor filing and payment compliance in the 3 years
following the settlement showed that the settlement’s participants were far less likely to meet
their Federal tax obligations without IRS intervention than the general taxpayer population, even
though their median8 adjusted gross incomes9 rose from $288,458 to $470,355.10 In addition, our
work comparing and analyzing features found in the Son of Boss settlement and an OIC suggests
that incorporating greater transparency as well as filing and payment compliance commitments
in tax shelter settlements might further help alleviate potential fairness concerns associated with
abusive tax shelters.

The effect of the Son of Boss settlement on investor voluntary filing and payment
compliance was not large
We analyzed the tax accounts of 1,825 individual taxpayers the IRS had identified as investors in
the Son of Boss tax shelter to determine how well they met their Federal tax return filing and
payment obligations in the 3 tax years following the settlement. We identified 534 investors
(29 percent) who did not meet their Federal tax obligations with respect to filing tax returns on
time and paying their taxes when due. As summarized in Figure 1, the 534 investors included
74 who had not filed 1 or more tax returns and 89 who filed tax returns late and were assessed
$1.26 million in late filing penalties. In addition, another 371 investors failed to pay their taxes

6
  United States Senate Committee on Finance, Memorandum, March 24, 2005.
7
  Albert B. Crenshaw, “IRS Crackdown on Tax Shelter Nets $3.2 Billion,” The Washington Post, March 25, 2005.
8
  The median divides amounts into halves; one-half of the amounts are above the median, and one-half are below it.
9
  Income after certain allowable adjustments from total income, such as Individual Retirement Arrangement
contributions, alimony paid, and moving expenses.
10
   Additional investor tax return information for the 3 tax years following the Son of Boss settlement is presented in
Appendix IV.
                                                                                                               Page 4
                      Despite the Success Achieved, the Son of Boss Settlement
                     Had Little Impact on Investor Filing and Payment Compliance



on time and were assessed late payment penalties. The delinquent taxes with interest and
penalties totaled $28 million.
     Figure 1: Analysis of Son of Boss Investor Filing and Payment Compliance for
                                 Tax Years 2004 - 2006
                                                                                                       Amount
                 Total Son of Boss investors analyzed (1,825)                           Number          Owed
 Investors who have not filed one or more tax returns                                      74          Unknown
 Investors who were assessed delinquency penalties for filing tax returns late             89        $1.26 million
 Investors who were assessed delinquency penalties for paying taxes late                   371        $28 million

                  Investors who participated in the Son of Boss settlement (1,103)
 Investors who have not filed one or more tax returns                                      38          Unknown
 Investors who were assessed delinquency penalties for filing tax returns late             43          $482,000
 Investors who were assessed delinquency penalties for paying taxes late                   219       $14.3 million

                Investors who did not participate in the Son of Boss settlement (722)
 Investors who have not filed one or more tax returns                                      36          Unknown
 Investors who were assessed delinquency penalties for filing tax returns late             46          $773,000
 Investors who were assessed delinquency penalties for paying taxes late                   152       $13.7 million
Source: Our analysis of the IRS Master File.11

When we compared the levels of Federal tax return filing and payment compliance for the
1,103 investors who participated in the settlement to those of the 722 non-participating investors,
we found little difference between the 2 groups in terms of filing their returns on time and paying
their taxes when due. As Figure 1 shows, 300 (27 percent) of the 1,103 participants and
234 (32 percent) of the 722 non-participants did not meet their filing and payment obligations
and required or will require IRS intervention.
Moreover, the percentage of investors in both groups who are not meeting their filing and
payment obligations is significantly higher than the noncompliance rate in the general taxpayer
population. In August 2007, the Department of the Treasury and the IRS issued a report entitled
Reducing the Federal Tax Gap: A Report on Improving Voluntary Compliance, which indicated
that the noncompliance rate overall is 16.3 percent.



11
  The Master File contains, among other things, postings of tax data and related information pertaining to taxpayers
so that the File reflects a continuous updated and current record of each taxpayer’s account.
                                                                                                            Page 5
                       Despite the Success Achieved, the Son of Boss Settlement
                      Had Little Impact on Investor Filing and Payment Compliance



Greater transparency and compliance commitments might help alleviate potential
fairness concerns
Although tax shelter settlements are an important tax administration tool, the fact that they
resolve issues for amounts less than what could have been owed might exacerbate the appearance
of unfairness in our tax system that is associated with abusive tax shelters. The fairness issue
might be further aggravated when a tax shelter settlement allows participating taxpayers to
deduct a portion of the costs associated with investing in the abusive tax shelter even when they
fail to meet their tax return filing and payment obligations.
We do not have any data to indicate the effect that tax shelter settlements are having on the
attitudes of the vast majority of taxpayers who do not participate in abusive tax shelters and pay
their taxes in full. However, in establishing the statutory procedures for an OIC, Congress
recognized the potential fairness issues related to settling for less than the full amount owed by
granting the IRS the authority under the Internal Revenue Code12 to disclose certain information
about each OIC. This includes the name of the taxpayer whose debt was compromised, the
amount of the debt compromised, and the amount accepted by the Federal Government as full
payment of the liability. Although this authority does not extend to tax shelter settlements, such
transparency is important in terms of fairness because it helps assure taxpayers that the tax law
and related administrative procedures are applied consistently and are not favoring one taxpayer
over another.
Besides transparency, there are other differences, as well as similarities, between the Son of Boss
settlement and an OIC, as outlined in Figure 2. One important difference is that the Son of Boss
settlement was focused on promoting voluntary reporting compliance while the focus of an OIC
is on promoting voluntary filing and payment compliance. One similarity is that both are
incentives offered to noncompliant taxpayers because they either invested in an abusive tax
shelter the IRS described as a no-risk scheme designed to generate tax losses or–in the case of an
OIC–are asking to pay less than the IRS has determined is owed. Both incentives also ultimately
settle debts for less than the amounts that could have been owed and are promoted as being in the
best interest of the Federal Government and the taxpaying public. Because of the similarities
between the two incentives, we analyzed features in each and have observations that the IRS
might find useful in designing future tax shelter settlements. Specifically, our analysis suggests
that besides greater transparency, incorporating filing and payment compliance commitments in
tax shelter settlements might help alleviate any potential fairness concerns associated with
abusive tax shelters.




12
     Internal Revenue Code Section 6103(k)(1) (2008).
                                                                                            Page 6
                      Despite the Success Achieved, the Son of Boss Settlement
                     Had Little Impact on Investor Filing and Payment Compliance



 Figure 2: Selected Features Found in the Son of Boss Settlement and in an OIC
                                                                                              Son of Boss
                             Selected Features                                 OIC             Settlement

  Promoted as being in the best interest of the Federal Government and
  taxpayers                                                                    ●                  ●

  Settles issues for less than the amounts that could have been owed           ●                  ●

  Involves only noncompliant taxpayers by definition                           ●                  ●

  Makes information about the settlement available for public inspection       ●                  ○

  Considered for liabilities that have yet to be assessed                      ○                  ●

  Focused on promoting voluntary filing and payment compliance                 ●                  ○

  Focused on promoting voluntary reporting compliance                          ○                  ●
  Requires returns to be filed on time and taxes to be paid when due to keep
  benefits                                                                     ●                  ○

  Encourages the disclosure of participation in tax shelters                   ○                  ●

  Requires estimated tax payments to be current                                ●                  ○
                                                 Yes ● No○

Source: Our analysis of Internal Revenue Manual 8.23.1, Offer in Compromise (Form 656), and
IRS Announcement 2004-46.

With respect to filing and payment commitments, taxpayers who have their liabilities
compromised face losing the benefits they receive under an OIC because the IRS can reinstate
the debt and resume collection actions if they fail to meet all of their filing and payment
obligations in the succeeding 5 years. In contrast, taxpayers who participated in the Son of Boss
settlement were not required to make a similar commitment as a condition for deducting
promoter and professional fees and, in some instances, avoiding the imposition of penalties. We
believe that there are at least two reasons why linking future filing and payment compliance with
the potential loss of benefits is important from a tax system fairness perspective. First, it ensures
that there are consequences that extend beyond the delinquency penalties an otherwise compliant
taxpayer in the general population might occasionally incur. Second, our work and that of the


                                                                                                      Page 7
                     Despite the Success Achieved, the Son of Boss Settlement
                    Had Little Impact on Investor Filing and Payment Compliance



IRS suggest that the prospect of losing benefits contributes to a high level of voluntary filing and
payment compliance.
As we reported in 2004,13 96 percent of the 84 taxpayers evaluated in a statistical sample of
28,018 OICs were in compliance with their filing and payment obligations at the time of our
review. In an earlier study covering Calendar Years 1995 through 2001, the IRS reported14
finding that 80.1 percent of individual taxpayers who had their debts compromised were meeting
their filing and payment obligations. While this percentage is lower than our findings in 2004, it
is nevertheless notable considering that these were all previously noncompliant taxpayers.
The seemingly high level of voluntary filing and payment compliance linked to the compliance
commitments in the OIC is significant because enhancing voluntary compliance is key to
reducing the annual tax gap.15 The relationship between tax system fairness and tax gap
reduction can, perhaps, be best summarized by the following comments from Senator
Max Baucus that appeared in a July 16, 2008, Senate Finance Committee news release: “The
sooner we can close the tax gap, the better. It’s a matter of fairness to hard-working, law-abiding
taxpayers who are forced to pick up a bigger burden because others don’t pay what they owe.”

The IRS would face challenges to incorporating greater transparency and
compliance commitments in future tax shelter settlements
Before the IRS makes any decision about including filing and payment commitments and
allowing for greater transparency in future tax shelter settlements, it will need to consider at least
three factors.
     •   The benefit that might be derived from obtaining a filing and payment commitment from
         taxpayers as a condition for participating in future tax shelter settlements would need to
         be weighed against the costs of providing it. Just as it does with an OIC, the IRS would
         incur costs associated with monitoring the filing and payment requirements of investors
         who participate in a tax shelter settlement. In addition, fewer investors might be willing
         to participate in a tax shelter settlement if they risk losing the benefits of the settlement
         for not meeting their future Federal tax obligations.
     •   The Internal Revenue Code would need to be changed to allow for the public disclosure
         of information about each settlement. As indicated earlier in the report, Internal Revenue
         Code Section 6103 specifically allows the IRS to disclose taxpayer information about an
         OIC. However, it generally prohibits the IRS from publicly disclosing other Federal tax

13
   Monitoring of Offers in Compromise Is Generally Effective, but Some Improvement Is Needed (Reference
Number 2004-30-043, dated January 2004).
14
   IRS, Accepted Offers In Compromise: Compliance With The Terms of the Offer. Research Project 04.00.001.02,
December 12, 2002.
15
   The tax gap is the estimated difference between the amount of tax that taxpayers should pay and the amount that is
paid voluntarily and on time.
                                                                                                            Page 8
                  Despite the Success Achieved, the Son of Boss Settlement
                 Had Little Impact on Investor Filing and Payment Compliance



       information without taxpayer consent. Similar to the filing and payment commitment,
       the threat of disclosing information on each settlement might discourage taxpayers from
       participating in tax shelter settlements.
   •   Data would need to be collected as to whether current tax shelter settlements are, in fact,
       adversely affecting taxpayer perceptions about tax system fairness. Using such data as a
       measurement tool would be inherently difficult because each person’s view of tax system
       fairness is largely subjective.
Although this report discusses filing and payment compliance issues related to participants in the
Son of Boss settlement, we are not recommending any specific corrective actions. Because our
review focused only on the Son of Boss settlement, we have no basis for knowing whether the
filing and payment compliance issues were unique to participants in the Son of Boss settlement
initiative or are prevalent among participants in other tax shelter settlements. Therefore, we have
no basis for recommending specific changes to IRS policies and procedures.




                                                                                            Page 9
                      Despite the Success Achieved, the Son of Boss Settlement
                     Had Little Impact on Investor Filing and Payment Compliance



                                                                                                     Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate whether participants and non-participants in
the Son of Boss1 settlement are meeting their Federal tax obligations. During the review, we
relied on information provided to us by the IRS. This information included Son of Boss investor
databases and Master File2 account data. Except as described below, we did not establish the
reliability of these data due to the considerable amount of time and resources that would be
needed to audit the data. We also did not assess internal controls because to do so would not
have been applicable within the context of this audit. To accomplish our objective, we:
I.       Reviewed a significant amount of source material to gain an understanding of the Son of
         Boss abusive tax shelter, an OIC,3 and tax shelter settlements. These sources included
         reports issued by us and the Government Accountability Office; the Internal Revenue
         Code; the United States Treasury Regulations; and the IRS Internal Revenue Manual,
         publications, and training materials.
II.      Assessed whether the information in the Son of Boss databases was reliable enough for
         our purposes by comparing key information in the databases to the IRS Master File
         accounts for Son of Boss abusive tax shelter investors.
III.     Evaluated the levels of payment and reporting compliance among investors in the Son of
         Boss abusive tax shelter for Tax Years 2004 through 2006 by analyzing a Master File
         extract of individual investor accounts.
IV.      Assessed how the various features of an OIC and the Son of Boss settlement addressed
         potential fairness issues that could be raised by the vast majority of taxpayers who
         voluntarily file their returns on time and pay their taxes when due.
V.       Evaluated the IRS Return Transaction Files for Tax Years 2003 through 2005 to present a
         statistical portrayal of selected return items reported to the IRS by investors in the Son of

1
  Internal Revenue Service Notice 2000-44, Tax Avoidance Using Artificially High Basis, 2000-36 IRB 255,
describes “Son of Boss” transactions as arrangements that are “designed to produce noneconomic tax losses on the
disposition of partnership interests.”
2
  The Master File contains, among other things, postings of tax data and related information pertaining to taxpayers
so that the File reflects a continuous updated and current record of each taxpayer’s account.
3
  An OIC is an agreement between the taxpayer and the Federal Government that settles a tax liability for payment
of less than the full amount owed. According to the IRS, it will generally accept an OIC when it is unlikely that the
tax liability can be collected in full and the amount reasonably reflects collection potential. The goal is to achieve
collection of what is potentially collectible at the earliest possible time and at the least cost to the Federal
Government.
                                                                                                             Page 10
           Despite the Success Achieved, the Son of Boss Settlement
          Had Little Impact on Investor Filing and Payment Compliance



Boss abusive tax shelter. The Return Transaction File contains line item amounts that the
IRS transcribed from the tax returns filed by taxpayers, including investors in the Son of
Boss abusive tax shelter.




                                                                                  Page 11
                 Despite the Success Achieved, the Son of Boss Settlement
                Had Little Impact on Investor Filing and Payment Compliance



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Robert M. Jenness, Audit Manager
William Tran, Lead Auditor
Timothy F. Greiner, Senior Auditor
Amanda Fila, Economist
Richard Hillelson, Information Technology Specialist




                                                                                      Page 12
                Despite the Success Achieved, the Son of Boss Settlement
               Had Little Impact on Investor Filing and Payment Compliance



                                                                  Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
      Commissioner, Large and Mid-Size Business Division SE:LM
      Commissioner, Small Business/Self-Employed Division SE:S




                                                                        Page 13
                         Despite the Success Achieved, the Son of Boss Settlement
                        Had Little Impact on Investor Filing and Payment Compliance



                                                                                                Appendix IV

                          Investor Tax Return Information

 Figure 1 presents selected line items from Son of Boss abusive tax shelter investor tax returns as
 filed with the IRS. It also shows that the median1 adjusted gross income2 and taxable income
 increased in each of the 2 tax years following the Son of Boss settlement. The settlement was
 publicly announced on May 5, 2004, which was shortly after the April 15, 2004, due date for Tax
 Year 2003 returns.
 Figure 1: Selected Items From the Tax Returns Filed by Son of Boss Investors for
                              Tax Years 2003 - 2005
           Selected Tax Return Items                     2003                  2004                 2005
 Salaries and Wages
                   Median                               $150,000             $154,200             $148,844
                      Number of Returns                  1,159                 1,123                1,115

 Interest Income
                   Median                               $29,985               $26,055              $35,668
                   Number of Returns                     1,730                 1,721                1,696

 Itemized Deductions
                   Median                               $108,779             $136,443             $142,641
                   Number of Returns                     1,679                 1,672                1,635

 Adjusted Gross Income
                   Median                               $288,458             $380,668             $470,355
                   Number of Returns                     1,771                 1,764                1,719

 Taxable Income
                   Median                               $150,640             $185,507             $275,255
                   Number of Returns                     1,771                 1,764                1,719

Source: Our analysis of the IRS Return Transaction File. This File contains line item amounts that the IRS
transcribed from the tax returns filed by taxpayers.


 1
  The median divides amounts into halves; one-half of the amounts are above the median, and one-half are below it.
 2
  Income after certain allowable adjustments to total income, such as Individual Retirement Arrangement
 contributions, alimony paid, moving expenses, and Keogh account contributions.
                                                                                                             Page 14
